Ti
vou  CSOCKLE

: E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B ml efs contact@cocklelegalbriefs.com
st. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-975

CENTER FOR BIOLOGICAL DIVERSITY, ANIMAL
LEGAL DEFENSE FUND, DEFENDERS OF WILDLIFE,
AND SOUTHWEST ENVIRONMENTAL CENTER,
Petitioners,

Vv.

U.S. DEPARTMENT OF HOMELAND SECURITY
AND CHAD WOLF, ACTING SECRETARY OF THE
U.S. DEPARTMENT OF HOMELAND SECURITY,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
NORTH AMERICAN BUTTERFLY ASSOCIATION AND NATIONAL BUTTERFLY CENTER
IN SUPPORT OF PETITIONERS in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 4224 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this Sth day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

tor Ondih, Chl

Affiant 30518

     

f GENERAL MOTARY-State of flebraska
RENEE J. GOSS

My Commn. Exp. September 8, 2023,

Notary Public
